OFFICE OF INSPECTOR GENERAL



AUDIT OF USAID/SRI LANKA’S
TSUNAMI RECOVERY AND
RECONSTRUCTION PROGRAM
SELECTED OUTPUTS
IMPLEMENTED BY
DEVELOPMENT
ALTERNATIVES, INC.
AUDIT REPORT NO. 5-383-07-007-P

June 22, 2007



MANILA, PHILIPPINES
Office of Inspector General


June 22, 2007

MEMORANDUM

TO:                  USAID/Sri Lanka Director, Rebecca W. Cohn

FROM:                Regional Inspector General/Manila, Catherine M. Trujillo /s/

SUBJECT:             Audit of USAID/Sri Lanka’s Tsunami Recovery and Reconstruction Program
                     Selected Outputs Implemented by Development Alternatives, Inc.
                     (Audit Report No. 5-383-07-007-P)

This memorandum transmits our final report on the subject audit. In finalizing the report, we
considered your comments to the draft report and included the comments (without attachments)
in Appendix II.

This report contains one recommendation to improve USAID/Sri Lanka’s tsunami recovery and
reconstruction program activities. Based on your comments and action taken, we consider that
final action has been taken on the recommendation.

I want to thank you and your staff for the cooperation and courtesy extended to us during the
audit.




U.S. Agency for International Development
                        th
PNB Financial Center, 8 Floor
Roxas Blvd., 1308 Pasay City
Manila, Philippines
www.usaid.gov
CONTENTS

Summary of Results ....................................................................................................... 1 


Background ..................................................................................................................... 2 


Audit Objective .................................................................................................................. 2 


Audit Findings ................................................................................................................. 3 


Were selected outputs implemented under USAID/Sri 

Lanka’s Tsunami Recovery and Reconstruction Program
by Development Alternatives, Inc. being achieved?

     Grantee Did Not Perform in Accordance
     With the Terms of the Grant Agreement ..................................................................... 8 


Evaluation of Management Comments ....................................................................... 11 


Appendix I – Scope and Methodology ........................................................................ 12 


Appendix II – Management Comments ....................................................................... 14 

SUMMARY OF RESULTS

The Regional Inspector General/Manila conducted this audit to determine whether
selected outputs implemented under USAID/Sri Lanka’s tsunami recovery and
reconstruction program (TRRP) by Development Alternatives, Inc. were being achieved.
(See page 2.)

Selected outputs1 implemented under USAID/Sri Lanka’s tsunami recovery and
reconstruction program by Development Alternatives, Inc. (DAI) were generally being
achieved. Specifically, as of the audit cutoff date of February 12, 2007, 106 of 114 planned
outputs reviewed were achieved or on schedule to be achieved. Six of the remaining eight
outputs did not meet their targets due to security issues, overestimation of target, and
differing community attitudes. The last two outputs were not achieved because the grantee
did not perform in accordance with the terms of the grant agreement. (See page 3.)

The activities were implemented under the $20 million tsunami supplemental fund, and
focused on:

•	 rebuilding infrastructure small-scale: community impact program - $13 million;

•	 transition from camps to communities:         livelihoods economic recovery program- $5
   million; and

•	 technical assistance/good governance: information dissemination - $2 million. (See
   page 3.)

Although the Mission’s tsunami recovery and reconstruction program activities achieved or
were achieving 93 percent of planned outputs, one grantee did not perform in accordance
with the terms of the grant agreement impacting the achievement of the selected outputs.
Specifically, during the grant’s original performance period of almost eight months, the plan
to repair and improve seven roads with a total of five kilometers was not achieved. In
addition, DAI amended the grant to decrease the number of roads and kilometers to
repair and improve from seven roads with a total of five kilometers down to three roads
with a total of approximately 2.3 kilometers, and increased the estimated grant amount
from $120,706 to $230,210. As a result, the TRRP’s goal of linking four villages with
tsunami-affected Tamil and Muslim residents was not achieved on schedule. (See
pages 8 - 10.)

This report makes one recommendation proposing that USAID/Sri Lanka management
reevaluate the aforementioned grant and to make a determination whether to allow
Development Alternatives, Inc. to continue with the planned activities or to put USAID
funds to better use. (See page 10.) Based on our evaluation of the Mission’s comments
and action taken, we considered that final action has been taken on the recommendation.
(See page 11.)


1
    USAID’s Automated Directives System defines output as a tangible, immediate, and intended
    product or consequence of an activity within USAID’s control or that of its contractors or
    grantees.


                                                                                                 1
BACKGROUND

On December 26, 2004, the largest earthquake to strike in South and Southeast Asia
since 1964 caused a devastating tsunami that killed over 150,000 people and displaced
hundreds of thousands more. Communities, roads, and other infrastructure were
destroyed or completely washed away. Of the affected countries, Sri Lanka was hit
second hardest, after Indonesia.

On May 11, 2005, the U.S. President signed the “Emergency Supplemental
Appropriations Act for Defense, the Global War on Terror, and Tsunami Relief, 2005”
which provided emergency supplemental fiscal year 2005 appropriation funding for a
number of purposes including assisting victims of the December 2004 tsunami. The Act
appropriated $656 million to USAID, which, in turn, provided USAID/Sri Lanka
approximately $134 million for its overall Tsunami Recovery and Reconstruction
Program.

On June 6, 2005, USAID modified an existing $14 million contract that it awarded to
Development Alternatives, Inc. (DAI) to increase it by $31 million, bringing the estimated
total cost of the contract to $45 million, in anticipation of the tsunami supplemental
funding.    Then, on July 28, 2005, USAID modified the contract by obligating
approximately $20 million in tsunami supplemental funds. The contract’s period of
performance is scheduled to end on March 31, 2008. Up through March 2007, the
Office of Transition Initiatives (OTI) at USAID/Sri Lanka was responsible for managing
the TRRP activities. These activities aim to empower community groups by building
their capacity and capability to determine, plan, implement and manage the rehabilitation
of their communities effectively and efficiently. DAI facilitated participatory planning by
community groups so that they could identify and prioritize their needs. DAI also
provided subgrants to community groups and local governments for small infrastructure
rebuilding and rehabilitation.

As of February 12, 2007, OTI records showed that of the $20 million tsunami
supplemental fund, $12.3 million2 had been committed for grants and $3.2 million had
been disbursed. On March 15, 2007, OTI officially handed over the management of the
DAI contract, and with it the TRRP, to USAID/Sri Lanka, Office of Humanitarian
Assistance and Transition Initiatives.


AUDIT OBJECTIVE
The Regional Inspector General/Manila conducted this audit as part of its fiscal year
2007 audit plan to answer the following question:

•	 Were selected outputs implemented under USAID/Sri Lanka’s Tsunami Recovery
   and Reconstruction Program by Development Alternatives, Inc. being achieved?

Appendix I contains a discussion of the audit’s scope and methodology.


2
    This amount does not include DAI’s operations costs.


                                                                                         2
AUDIT FINDINGS

Were selected outputs implemented under USAID/Sri Lanka’s
Tsunami    Recovery    and     Reconstruction  Program by
Development Alternatives, Inc. being achieved?
Selected outputs implemented under USAID/Sri Lanka’s Tsunami Recovery and
Reconstruction Program (TRRP) by Development Alternatives, Inc. (DAI) were generally
being achieved. Specifically, as of February 12, 2007, the audit cutoff date, 106 of 114
planned outputs reviewed were either achieved or on schedule to be achieved. Six of
the remaining eight outputs did not meet their targets due to security issues,
overestimation of target, and differing community attitudes. The last two outputs were
not achieved and are discussed in detail on page 8 of this report.

DAI implemented the activities under the $20 million tsunami supplemental fund by
awarding grants to local governments and nongovernmental organizations. The activities
focused on:

•	 rebuilding infrastructure small-scale: community impact grant program - $13 million;

•	 transition from camps to communities: livelihoods economic recovery program - $5
   million; and

•	 technical assistance/good governance: information dissemination - $2 million.

At the time of the audit fieldwork, DAI had awarded 172 grants with a combined committed
amount totaling $12.3 million. Of the 172 grants, we randomly selected for further review,
63 grants with a combined committed amount of $9.2 million. These 63 grants collectively
supported each of the major activities under the Tsunami Recovery and Reconstruction
Program.       Contained within the grant agreements were specific outputs or
deliverables/products. Table 1 on the following page summarizes the status for each of the
114 planned outputs reviewed under the 63 grants.




                                                                                          3
Table 1: Planned Outputs by Activity, Status, and Results of Review


                                                                               Results of Review




                                                                              Ongoing and
                                                                              On Schedule




                                                                                                       Output Not
                                                                                            Achieved


                                                                                                       Achieved
                                                                   Planned
                                                                   Outputs




                                                                                            Output
                                                                   No. of
                                                       Grant
                     Activity                         Status3

                                                  Cleared               58         56            0          24
    Rebuilding infrastructure small-scale         Completed              2          0            2           0
                                                  Closed                 5          0            4           1
                                                  Cleared               25         25            0           0
    Transition from camps to communities          Completed              1          0            1           0
                                                  Closed                 4          0            4           0
                                                  Cleared               11         11            0           0
    Technical assistance/good governance          Completed              5          0            1           4
                                                  Closed                 3          0            2           1
    Totals:                                                            114         92           14           8

To monitor the activities, the Mission developed and implemented a monitoring system
that included:

•	 Designating the Office of Transition Initiatives’ (OTI) Country Representative to
   manage the Development Alternatives, Inc. (DAI) contract.

•	 Hiring a monitoring and evaluation specialist who monitored and evaluated grants’
   activities.

•	 Holding periodic meetings with officials from DAI and the Tsunami Recovery and
   Reconstruction Program (TRRP) team.

•	 Requiring DAI to submit quarterly progress reports.

•	 Conducting field visits to activity sites and documenting the visits in trip reports.

•	 Using feedback from U.S. Embassy officials, grantees, and beneficiaries of the
   program.


3
     Cleared grants are those grants whose activities are ongoing. Completed grants are those
     whose activities are finished and outputs are either achieved or not achieved, at which point a
     range of administrative tasks associated with grant closeout begin. Closed grants are those
     whose activities are finished, outputs are either achieved or not achieved, and administrative
     tasks are completed.
4
     These two outputs that were not achieved came from a grant that was incorrectly classified as
     a cleared grant in OTI’s database when in fact the grant’s performance period ended in
     December 2006.


                                                                                                              4
•	 Attending opening ceremonies of completed projects to verify the equipment
   supplied and check the work performed.

•	 Issuing a mission order requiring the cognizant technical officer for the program to
   submit periodic progress reports.

•	 Performing portfolio reviews.

As part of the TRRP audit, the audit team and officials from the Mission and DAI traveled
to the southern part of Sri Lanka to visit project sites where the activities were either
completed or ongoing. The following activities highlight some of the accomplishments of
the TRRP funded under the $20 million tsunami supplemental fund.

Renovation and Re-equipping of Schools in Tsunami-affected Areas of
Hambantota – DAI awarded two grants with a combined grant amount of $343,207 to
implement activities supporting the renovation and re-equipping of ten schools that were
used to house tsunami-displaced persons in the Hambantota district. These school
buildings were overused as temporary shelters by the tsunami-displaced persons during
their stay, thus making the classrooms not conducive to learning. Also, the sanitary
conditions of these schools deteriorated after being used as temporary shelters. The
grantee, the Zonal Education Department in Hambantota, completed the renovation and
re-equipping activities in February 2007. According to the grantee, the renovation and
re-equipping activities will help reactivate the educational activities and improve the
services given to the tsunami-affected students.




                                            .

 OIG photograph of the renovated Bundala        OIG photograph of students from Bundala
 secondary school, one of ten schools in        secondary school using a computer
 Hambantota that benefited from the             donated by USAID under the $20 million
 tsunami supplemental funding.       Also       tsunami    supplemental    fund   being
 shown in the photograph are the students       implemented by DAI. (Hambantota, Sri
 from the school and DAI’s regional             Lanka, March 2007)
 program manager.       (Hambantota, Sri
 Lanka, March 2007)




                                                                                          5
Provision of Equipment to Karapitya Teaching Hospital –The Galle district was
severely hit by the tsunami and, during the disaster, the Karapitya Hospital had limited
ability to respond to the emergency as it had no emergency care department. Through a
grant using the tsunami supplemental fund, DAI awarded $225,118 to the Karapitya
Teaching Hospital Development Society to supply the hospital with emergency-related
equipment in order to increase its capability to provide appropriate care for urgent and
time-critical patients seeking treatment for trauma and emergencies. Additionally, the
grant covered training on cardiopulmonary resuscitation procedures, immediate first aid
response, and basic life-saving skills and techniques. According to the grantee, the
hospital will now be able to provide an effective response capacity to manage disaster
and mass casualty situations.




OIG photograph of a patient admitted to     OIG photograph of a doctor at the
the emergency trauma unit at the            Karapitya Hospital teaching cardio-
Karapitya Hospital.   All the medical       pulmonary resuscitation procedures
equipment shown in the photograph was       using a trauma mannequin donated by
funded under the $20 million tsunami        USAID under the tsunami supplemental
supplemental fund. (Galle, Sri Lanka,       fund. (Galle, Sri Lanka, March 2007)
March 2007)

Re-establishing the Local Economy Through Activation of Harbor – DAI awarded a
$234,163 grant to the Ceylon Fisheries Harbor Cooperation to support the repair of
some machinery damaged by the tsunami in order to complete the dredging of the
Kirinda fisheries harbor and bring the harbor back to its full, pre-tsunami operation.
Kirinda fisheries harbor is one of two harbors in the Hambantota district that provides
harboring facilities for about 120 fishing vessels and more than 200 small boats. Normal
pre-tsunami dredging activities were stopped after the tsunami due to damage to the
dredging equipment. Since then no dredging took place in Kirinda resulting in complete
closure of the harbor mouth and cessation of operation. This brought the fisheries-
related economy of Kirinda to a standstill, putting the majority of the population in a
desperate situation without any permanent source of income. The completion of the
project, according to the grantee, will revitalize the economy of thousands of people who
depend on fisheries or related activities as their main source of income.




                                                                                       6
                                                OIG photograph of the USAID-funded
                                                sand-conveying pipes attached to the
                                                dredging machine and used in dredging
                                                sand from the mouth of the Kirinda
                                                harbor. (Hambantota, Sri Lanka, March
                                                2007)




                                                OIG photograph of the nozzle of the
                                                sand-conveying pipe spewing sand
                                                dredged from the mouth of the Kirinda
                                                harbor. (Hambantota, Sri Lanka, March
                                                2007)




Livelihood Support Through Market Improvement – DAI awarded a grant, which at
the time of the audit fieldwork had an estimated amount of $183,359, to the Municipal
Council of Matara for the reconstruction of the Kotuwagoda market. The market was
completely washed away by the tsunami in 2004, thus affecting more than 300 vendors
and suppliers, who lost lives and assets in the disaster. After the tsunami, the economic
development of Matara boomed when both government and nongovernmental
organizations started new construction and other interventions in the district. When
completed, according to the grantee, the market will support the local economy
tremendously and improve the services for the general public.




                                                                                        7
                                                 OIG photograph of the Kotuwagoda
                                                 market under construction with the
                                                 stalls clearly demarcated by concrete
                                                 slabs. The construction of the market
                                                 is funded by USAID under the tsunami
                                                 supplemental fund. (Matara, Sri Lanka,
                                                 March 2007)




Although the Mission achieved or was achieving approximately 93 percent of the
TRRP’s selected planned outputs, an issue relating to a grantee that did not perform in
accordance with the terms of the grant agreement and the resulting consequences
needs to be addressed.


Grantee Did Not Perform in Accordance
With the Terms of the Grant Agreement

 Summary: Contrary to the terms of the grant that commitments assumed by the
 grantee and the fulfillment of program objectives would be completed by the end date
 of the grant, the grantee did not finish the repair and improvement of seven roads
 with a total of five kilometers in the almost eight months that the grant was in effect.
 This occurred because the grantee did not take full responsibility for the
 implementation of the grant’s activities. As a result, the overall objective under this
 program, to bring together Tamil and Muslim residents from four villages through the
 renovation of gravel roads, was not achieved. Furthermore, it is questionable if the
 prime implementer made a sound business decision by amending the subject grant
 that resulted in doubling the initial costs for completion of half of the original intended
 number of roads to be repaired and improved.


In support of rebuilding infrastructure small-scale activities, DAI awarded grant number
DAIC518 to a local non-governmental organization (NGO) with start and completion
dates of May 15, 2006, and December 31, 2006, respectively. The main objective of the
grant was to bring together the tsunami-affected Tamil and Muslim residents from four
villages by linking the villages through the renovation of short gravel roads. The grantee
was expected to repair and improve seven roads with a total of five kilometers.
Additionally, the grant agreement tasked the grantee with full responsibility for the
conduct of the project or activity supported under the grant agreement and for
adherence to the conditions of the grant agreement. Although the grantee was
encouraged to ask DAI for advice and opinion on problems that may arise, the grantee
was still responsible for making sound technical and administrative judgments in
implementing the activities.




                                                                                               8
As of the grant’s end date of December 31, 2006, the grantee had not completed the
road project.     From May to December 2006, the grantee completed other
non-infrastructure tasks of the grant such as conducting community consultations to
share, design, and plan implementation of projects and training of trainers in the area of
management, conflict mitigation and peace building. But, the road project remained
unfinished.

The underlying reason why the grantee had not completed the road project by the end
date of the grant was because the grantee did not take full responsibility for the
implementation of the project. It relied on DAI and its construction management
consultant, Neo Engineering and Technological Solutions (NEAT Solutions), to make all
the decisions in addressing the problem associated with the project as further described
below. Despite the problem identified, the grantee did not take timely appropriate
actions to ensure completion of the roads by the original completion date of
December 31, 2006.

At the time the grantee submitted the original road design, DAI did not have an
engineering firm as a subcontractor to review the design. In this regard, DAI used its
own engineering consultant to review plans and inspect TRRP-funded infrastructure
work to ensure that planned and ongoing interventions were appropriate and viable, and
to help select an engineering firm to be subcontracted. According to DAI’s engineering
consultant, the grantee’s original design for the roads to be repaired did not include
drainage structures, which, a DAI official explained, is the core component of road
construction, especially in the tropics. Water needs to travel across the road and off the
road. Without these drainage structures, the road surface will be undermined and
eventually fail. The absence of drainage structures in the original plan was noted by
DAI’s engineering consultant as early as May/June 2006 and disclosed in his report to
USAID on June 20, 2006. DAI’s newly subcontracted engineering and construction
management consultant, NEAT Solutions, was at the project site by July 14, 2006, and
immediately informed the grantee of the situation. On August 29, 2006, DAI requested
OTI to approve the inclusion of the drainage structures in the plan, and NEAT Solutions
to revalidate the project.

However, it was not until around the middle of December 2006, when NEAT Solutions
informed DAI about anticipated delays in getting the final bill of quantities for the road
renovations due to security tension and heavy rainfall that impeded fieldwork. As a
result, DAI was not able to get the technical information prior to the grant end date.
Hence, at the time of the grant’s original end date of December 31, 2006, DAI was
undecided whether to close the grant without the roads completed or to extend the grant
with a revised budget and work plan.

Consequently, on February 26, 2007, or approximately two months after the grant’s
performance period had ended, the cognizant technical officer for the TRRP approved
the revision of the grant. This revision resulted in the (1) extension of the grant’s
performance period from December 31, 2006, to August 31, 2007; (2) decrease in the
number of roads and kilometers to repair and improve from seven roads with a total of
five kilometers down to three roads with a total of approximately 2.3 kilometers; and (3)
increase in the estimated grant amount from $120,706 to $230,210. As well, the TRRP’s
goal of linking four villages with tsunami-affected Tamil and Muslim residents was not
achieved on schedule.



                                                                                        9
Notwithstanding that the grant’s period of performance was extended until
August 31, 2007, it is questionable if the decision to modify the grant awarded under the
infrastructure supplemental fund will result in meeting the overall objective of the grant
given the significant reduction in the number of roads and kilometers to be repaired.
Furthermore, given that the estimated costs for this agreement almost doubled from the
initial estimate, it is questionable if the Mission is making the most efficient use of these
funds. As a result we recommend the following:

   Recommendation No. 1: We recommend that USAID/Sri Lanka reevaluate grant
   number DAIC518 and make a determination whether to allow Development
   Alternatives, Inc. to continue with the planned activities or to put USAID funds to
   better use.




                                                                                          10
EVALUATION OF
MANAGEMENT COMMENTS
In its response to the draft report, USAID/Sri Lanka agreed with the overall results of the
audit. However, the Mission did not agree with the draft recommendation included within
our draft report which recommended for USAID/Sri Lanka to require Development
Alternatives, Inc. to cancel grant number DAIC518 and to put the grant’s remaining
USAID funds to better use.

Furthermore, the Mission provided additional explanation on the ramifications of such a
recommendation as well explained in detail its rationale for deciding to continue with this
program despite the reduction in the scope of work.

Based on the Mission’s comments, we revised the recommendation in the final report to
allow for more flexibility in how the Mission proceeds with the management of this
activity. Based on our evaluation of the Mission’s comments and action taken, we
conclude that it has taken appropriate action in managing the activities under this grant.
Therefore, we consider that final action has been taken on this recommendation.




                                                                                        11
                                                                               APPENDIX I 




SCOPE AND METHODOLOGY

Scope
The Regional Inspector General/Manila conducted this audit in accordance with
generally accepted government auditing standards to determine whether selected
outputs implemented under USAID/Sri Lanka’s Tsunami Recovery and Reconstruction
Program (TRRP) by Development Alternatives, Inc. were being achieved.

The audit covered selected planned outputs funded under TRRP’s $20 million tsunami
supplemental fund, as contained in the Office of Transition Initiatives (OTI) grants database
as of the defined audit cut-off date of February 12, 2007. As of that date, OTI records
showed that $12.3 million had been committed and $3.2 million had been disbursed. The
audit fieldwork was conducted from February 21 to March 16, 2007 at the offices of
USAID/Sri Lanka and Development Alternatives, Inc. in Colombo, Sri Lanka. Furthermore,
project site visits were conducted in Galle, Hambantota, and Matara, Sri Lanka.

In planning and performing the audit, we reviewed and assessed the significant internal
controls developed and implemented by USAID/Sri Lanka and OTI to manage and monitor
the TRRP. The assessment included controls related to whether the Mission (1) conducted
and documented project site visits to evaluate progress and monitor quality; (2) reviewed
progress and monitoring reports submitted by the implementing partner; (3) maintained a
database on the status of the activities; and (4) held periodic meetings with the
implementing partner and the TRRP team. We also reviewed the Mission’s Federal
Managers’ Financial Integrity Act report for fiscal year 2006 for any issues related to the
audit objective.

As of February 12, 2007, DAI had awarded 172 grants under the $20 million tsunami
supplemental fund and OTI maintained the grants’ data within its database system. We
judgmentally selected 122 grants to test the database’s accuracy and completeness.


Methodology
To answer the audit objective, we statistically selected 62 of the 172 grants for review.
We used an error rate of five percent and variations allowed were plus or minus four
percent, with a confidence level of 95 percent. Since each grant had a different number
of planned outputs, we judgmentally selected outputs based on their relevance to the
grant’s primary objective. This resulted in the selection of 114 outputs for review. We
then reviewed documents such as grant clearance forms, grant notes, timeline
schedules, progress reports, and monitoring and evaluation reports relevant to the 114
outputs to determine their existence, status, and timely completion. As well, we checked
for photographic evidence that the outputs existed since we could visit only a limited
number of project sites. In addition, we talked about or discussed via e-mail the status
of the outputs with officials from OTI and the implementing partner.

We established the following materiality thresholds to answer the audit objective:




                                                                                          12
•	 The answer to the audit objective would be positive if 90 percent of the selected
   planned outputs were achieved or were on schedule to be achieved by their
   respective grant agreement end date.

•	 The answer to the audit objective would be qualified if less than 90 percent, but not
   less than 70 percent, of the selected outputs were achieved or were likely to be
   achieved by their respective grant agreement end date.

•	 The answer to the audit objective would be negative if less than 70 percent of all
   planned outputs were achieved or were likely to be achieved by their respective
   grant agreement end date.




                                                                                     13
                                                                          APPENDIX II 




MANAGEMENT COMMENTS




________________________________________________________________________________


 June 7, 2007

 MEMORANDUM

 TO:	           Catherine Trujillo, Regional Inspector General/Manila

 FROM:	         Rebecca Cohn, Mission Director, USAID/Sri Lanka /s/

 SUBJECT:	 Audit of USAID/Sri Lanka’s Tsunami Recovery and Reconstruction
           Program Selected Outputs Implemented by Development Alternatives,
           Inc. (Audit Report No. 5-383-07-00X-P)


 The USAID Mission in Sri Lanka would like to thank the Regional Inspector General
 (RIG) and its team of auditors for the collegial, transparent and constructive
 approach they took in assessing the level to which the Sri Lanka Transition Initiatives
 program achieved targeted outputs with tsunami-earmarked funding. The Mission is
 gratified to learn that small-grant activities evaluated by the RIG delivered what they
 promised more than 90 percent of the time.

 While understanding RIG’s concerns about grant number DAIC518, the Mission does
 not concur with the auditors’ recommendation that the Mission request Development
 Alternatives, Inc. (DAI) to cancel the activity, a road rehabilitation project in the
 tsunami-affected town of Kattankudy, Batticaloa District. The reasons for continuing
 the project include the following:

 -	   Project delays on DAIC518 resulted largely from a technical error, which was not
      the fault of the grantee but of engineers attached to elected local government
      bodies. These delays were compounded by inclement weather and political
      instability, neither of which the grantee can control;
 -	   The technical error involved an inadequate estimate of what would be required to
      successfully implement this project. The error has been corrected by a re
      validation of the project by DAI’s engineering sub-contractor, NEAT Solutions
      Inc., that added roadside drainage to the project given the flood-prone nature of
      the area. Completing the road without the appropriate drainage would have
      negated the USG investment in the road construction;




                                                                                     14
-	   Road and drainage rehabilitation has been identified as a top development
     priority by the community and local authorities;
-	   Expectations have been raised in the adjacent Tamil and Muslim villages and
     neighborhoods that the road project connects, and community ownership is high.
     During 2006, five community consultations and three meetings with local elected
     authorities were held to discuss and plan; in 2007, two volunteer community
     cleanup events to prepare for the road work were organized in parallel;
-	   Cancelling the project could damage USAID’s credibility with the population and
     local authorities in the multi-ethnic community, which is within the regional focus
     of the Mission’s planned conflict response programs to begin in FY08.
     Furthermore, it could erode trust between USAID and the politically and
     religiously divided Muslim population in the area, which has demonstrated the
     capacity for violence within their own community.

Mission Director Rebecca Cohn and Transition Initiatives Country Representative
Mike DeSisti, accompanied by DAI program and implementation staff, visited the
road site on May 30, 2007, and met with the grantee, Sarvodaya, a local NGO. Two
weeks prior, DeSisti had met with DAI staff in the Ampara office to discuss the status
of the activity in light of RIG’s draft report and recommendation. Based on these and
other field visits by USAID and DAI staff, which included discussions with a wide
range of stakeholders related to the grant, the Mission has decided to move forward
and complete the activity according to the modified agreement and timeline. As a
process-oriented activity that aims to strengthen relationships within a community
split along political and religious lines, and to increase the ability of local authorities
to deliver services, it has already demonstrated impact that the Mission is reluctant to
jeopardize. Furthermore, USAID is confident that the revised primary output from the
activity – the rehabilitation of 2.5 km of tsunami-affected road and associated
drainage construction – will be achieved according to the terms of the amended
grant agreement.

By way of background, we wish to draw RIG’s attention to the three objectives of the
grant activity. These are to: 1) Build local government capacity to promote
coexistence and reconciliation through collaborative identification, planning and
implementation of projects that benefit a cross-section of members within divided
communities; 2) Identify potential infrastructure projects of this sort for
implementation in tsunami-affected Muslim and Tamil communities in Kattankudy; 3)
Deliver public infrastructure improvements to these communities.

The role of the grantee for DAIC518, Sarvodaya, was threefold in achieving these
objectives. Firstly, Sarvodaya was responsible for mobilizing participants and
facilitating planning meetings involving community members and local government
officials in four villages. Secondly, they were tasked with providing five days of
training for 40 villagers and 10 local government officials on conflict mitigation, peace
building, and conflict-sensitive project management. Lastly, they were asked to
coordinate and ensure continued collaboration between the Muslim and Tamil
villages and local government officials in the road rehabilitation work.

The three modifications to the original grant activity approved by USAID’s Office of
Transition Initiatives (OTI) were necessitated by an inaccurate bill of quantities. The
error was made not by the grantee, but by engineers employed by the local elected
council, the Manmunai North Pradeshiya Sabha. These OTI-approved changes


                                                                                        15
included a time extension due to delays in the road rehabilitation work, a budget
modification required by the revised bill of quantities, and a corresponding
adjustment of the quantitative outputs. OTI approved these modification requests in
confidence that with the technical issue resolved, grant outputs as well as longer-
term, higher-order outcomes would be achieved.

If the exclusive objective of this grant were to rehabilitate roads with disregard for the
empowerment of the Pradeshiya Sabha, (re-)establishment of links between
communities and local government officials, and improved relationships between the
diverse and divided communities themselves, OTI could have skipped the process-
oriented consultations and training and partnered with a grantee whose primary
expertise was road construction. A significant aim of this activity, however, was
focused on rebuilding the social fabric within and between diverse communities
affected not only by the tsunami but by more than 20 years of conflict. Sarvodaya
has a demonstrated track record of success in this regard, and was chosen as the
grantee partly for this reason. The road project thus became both a means to an end
– minimally peaceful coexistence, but ideally reconciliation -- and an end in itself.

To sum up, USAID is committed to finishing what it has started under DAIC518 in the
conflict- and tsunami-affected communities between the predominantly Muslim town
of Kattankudy and the predominantly Tamil town of Ariyampathy. Expectations have
been raised, and USAID’s credibility is at stake. The primary issues with this grant
activity to date have been related to technical miscalculations – specifically, the
absence of a drainage system in the original design -- security constraints and
inclement weather. The technical expertise of DAI’s engineering sub-contractor,
NEAT Solutions, allows the grantee to focus on “soft components” of the activity
related to mediating between communities who are potentially at odds, and as well
between the ethnically and politically diverse local authorities elected and appointed
to serve them.

The Mission therefore is of the view that moving forward with the activity, with
Sarvodaya continuing as grantee, is a sound choice considering the Mission’s future
strategy and the small-grants program’s mandate to set the stage for this more
conflict-sensitive approach, with a regional focus in the Eastern and North-Central
provinces. USAID and DAI have already increased monitoring of the work in
progress to ensure that the revised outputs are completed by the end of the calendar
year at latest, which is the deadline for disbursement of tsunami supplemental
funding obligated to DAI. Above and beyond its obligations under the grant
agreement, Sarvodaya has agreed to form a road rehabilitation management
committee, comprised of a cross section of key stakeholders, including the
community. The committee will meet twice monthly to discuss progress; problems
will be reported to DAI.

In addition to our response regarding grant number DAIC518, there are some factual
inaccuracies within the report. First, on page two of the report it says “On July 28,
2005, USAID increased an existing $45 million contract that it awarded to
Development Alternatives, Inc (DAI) by $20 million.” The original DAI contract was
actually for $14 million. Then on June 6, 2005 USAID modified the DAI contract to
increase the total estimated cost by $31 million, bringing the total estimated cost of
the contract to $45 million. Then in a separate modification dated July 28, 2005
USAID obligated the $19,955,288 in Tsunami Supplemental funds. Second, on the


                                                                                       16
bottom of page 8 and on the top of page 9 there are several references to the “OTI
engineering consultant.” The consultant was, in fact, brought on by DAI.

In conclusion, we request that the RIG modify its draft recommendation to support a
successful conclusion of this OTI small grant.




                                                                                17
U.S. Agency for International Development 

        Office of Inspector General 

        1300 Pennsylvania Ave, NW 

          Washington, DC 20523 

            Tel: (202) 712-1150 

            Fax: (202) 216-3047 

            www.usaid.gov/oig
